Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



   CONNECTICUT GENERALLY
IMPLEMENTED RECOMMENDATIONS
FROM PRIOR REVIEW OF MEDICAID
    PAYMENTS FOR CLINICAL
     LABORATORY SERVICES



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                      David Lamir
                                                     Acting Regional
                                                    Inspector General

                                                        April 2013
                                                      A-01-12-00014
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Connecticut generally implemented the recommendations from our prior review of
 Medicaid payments for clinical diagnostic laboratory services.

WHY WE DID THIS REVIEW

A prior Office of Inspector General review found that the State of Connecticut did not always
claim Medicaid payments for clinical diagnostic laboratory services in accordance with Federal
requirements. We conducted this followup audit to ensure that the Connecticut Department of
Social Services (State agency) implemented the recommendations from our prior review.

The objective of this review was to determine whether the State agency had implemented our
prior recommendations (1) to refund $1.4 million in Medicaid overpayments and (2) to ensure
that amounts claimed for clinical diagnostic laboratory services and submitted for Federal
reimbursement do not exceed the Medicare fee schedule amounts.

BACKGROUND

Hospital outpatient and independent clinical diagnostic laboratory services provide information
for the diagnosis, prevention, or treatment of disease or for the assessment of a medical
condition. Tests are ordered by a physician or a qualified nonphysician practitioner who is
treating the patient. Medicaid reimbursement for clinical diagnostic laboratory tests may not
exceed the amount set in the Medicare Clinical Laboratory Fee Schedule (Medicare fee
schedule) (the Centers for Medicare & Medicaid Services State Medicaid Manual § 6300.2).

We issued a report in 2001 to the State agency on the results of an audit of clinical diagnostic
laboratory services for the period of January 1996 through December 1999. The audit identified
hospital outpatient and independent laboratory claims totaling $2.8 million ($1.4 million Federal
share) that exceeded the Medicare fee schedule payment amounts. These overpayments occurred
because the State agency had not updated its clinical laboratory fee schedules for hospital
outpatient laboratory services since 1993 and for independent laboratory services since 1994.
Accordingly, we recommended that the State agency:

    •   make an adjustment on the next quarterly report of expenditures in the amount of
        $2,823,505 ($1,411,752 Federal share) and

    •   implement procedures to update clinical laboratory fee schedules on a regular basis to
        ensure that amounts paid for clinical laboratory services do not exceed amounts that
        Medicare pays for the same services.

The State agency agreed with our findings.




Connecticut Generally Implemented Recommendations From Prior Review of
Medicaid Payments for Clinical Laboratory Services (A-01-12-00014)                                i
HOW WE CONDUCTED THIS REVIEW

We verified that the State agency implemented the recommendations from the prior report by (1)
confirming that the State agency refunded $1.4 million to the Federal Government for Medicaid
overpayments identified in our prior audit and (2) reviewing Medicaid hospital outpatient and
independent clinical diagnostic laboratory services that were submitted by providers and claimed
by the State agency for Federal reimbursement on Form CMS-64, Quarterly Medicaid Statement
of Expenditures for the Medical Assistance Program. The State agency claimed $60,686,313
($34,284,881 Federal share) for Medicaid hospital outpatient and independent clinical laboratory
services provided during calendar years 2006 through 2010.

WHAT WE FOUND

The State agency implemented the first recommendation from our prior audit. Specifically, the
State agency made an adjustment on its next quarterly report of expenditures for $2.8 million
($1.4 million Federal share). In general, the State agency implemented our prior audit’s second
recommendation to ensure that amounts claimed for laboratory services and submitted for
Federal reimbursement do not exceed the Medicare fee schedule amounts. However, for some
services (25,880 of the 6,333,931 services that we reviewed) the State agency paid providers
more than the payment amounts in the Medicare fee schedule. As a result, the Federal
reimbursement claimed by the State agency exceeded the rates allowed by Federal and State
requirements by $564,069 ($334,610 Federal share).

The Medicaid overpayments occurred because the State agency occasionally did not follow its
existing policies and procedures to ensure that the amounts claimed for hospital outpatient and
independent clinical laboratory services and submitted for Federal reimbursement did not exceed
the Medicare fee schedule amounts.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $334,610 to the Federal Government and

    •   follow its existing policies and procedures to ensure that the amounts claimed for hospital
        outpatient and independent clinical laboratory services and submitted for Federal
        reimbursement do not exceed the Medicare fee schedule amounts.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our findings.




Connecticut Generally Implemented Recommendations From Prior Review of
Medicaid Payments for Clinical Laboratory Services (A-01-12-00014)                                ii
                                                    TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION...................................................................................................................1

           Why We Did This Review ..........................................................................................1

           Objective ......................................................................................................................1

           Background .................................................................................................................1
                 Medicaid Program .............................................................................................1
                 Medicaid Coverage of Clinical Diagnostic Laboratory Services .....................1
                 Prior Office of Inspector General Report..........................................................2

           How We Conducted This Review ..............................................................................2

FINDINGS ...............................................................................................................................3

           Federal and State Requirements ...............................................................................3

           Medicaid Payments Exceeded Amounts Allowed by Medicare ..............................3

           Cause of Medicaid Overpayments .............................................................................4

RECOMMENDATIONS........................................................................................................4

STATE AGENCY COMMENTS ..........................................................................................4

APPENDIXES

           A: Audit Scope and Methodology.............................................................................5

           B: State Agency Comments .......................................................................................7




Connecticut Generally Implemented Recommendations From Prior Review of
Medicaid Payments for Clinical Laboratory Services (A-01-12-00014)                                                                             iii
                                         INTRODUCTION

WHY WE DID THIS REVIEW

A prior Office of Inspector General review found that the State of Connecticut did not always
claim Medicaid payments for clinical diagnostic laboratory services in accordance with Federal
requirements. We conducted this followup audit to ensure that the Connecticut Department of
Social Services (State agency) implemented the recommendations from our prior review.

OBJECTIVE

Our objective was to determine whether the State agency had implemented our prior
recommendations (1) to refund $1.4 million in Medicaid overpayments and (2) to ensure that
amounts claimed for clinical diagnostic laboratory services and submitted for Federal
reimbursement do not exceed the Medicare fee schedule amounts.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to certain low-income individuals and
individuals with disabilities (the Social Security Act (the Act), Title XIX). The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Connecticut, the State agency administers the
State’s Medicaid program.

Medicaid Coverage of Clinical Diagnostic Laboratory Services

Hospital outpatient and independent clinical diagnostic laboratory services provide information
for the diagnosis, prevention, or treatment of disease or for the assessment of a medical
condition. Tests are ordered by a physician or a qualified nonphysician practitioner who is
treating the patient. Clinical laboratory services involve the following types of examination of
materials derived from the human body: biological, microbiological, serological, chemical,
immunohematological, hematological, biophysical, cytological, pathological, or other
examinations of materials.

Providers use CMS’s Health Care Common Procedural Coding System (HCPCS) codes to claim
clinical laboratory costs for reimbursement from the State agency. The State agency seeks
Federal reimbursement for amounts paid on behalf of Medicaid beneficiaries. The Federal
Government pays its share of State Medicaid expenditures, including claims for clinical
diagnostic laboratory services, according to a formula established in the Act § 1905(b). That
share is known as the Federal medical assistance percentage (FMAP). The FMAP in
Connecticut ranged from 50.00 percent to 61.59 percent during our audit period.


Connecticut Generally Implemented Recommendations From Prior Review of
Medicaid Payments for Clinical Laboratory Services (A-01-12-00014)                                 1
Medicaid reimbursement for clinical diagnostic laboratory tests may not exceed the amount set
in the Medicare Clinical Laboratory Fee Schedule (Medicare fee schedule) (CMS State Medicaid
Manual § 6300.2).

Prior Office of Inspector General Report

We issued a report in 2001 to the State agency on the results of an audit of clinical diagnostic
laboratory services for the period of January 1996 through December 1999. 1 The audit identified
hospital outpatient and independent laboratory claims totaling $2.8 million ($1.4 million Federal
share) that exceeded the Medicare fee schedule payment amounts. These overpayments occurred
because the State agency had not updated its clinical laboratory fee schedules for hospital
outpatient laboratory services since 1993 and for independent laboratory services since 1994.
Accordingly, we recommended that the State agency:

    •   make an adjustment on the next quarterly report of expenditures in the amount of
        $2,823,505 ($1,411,752 Federal share) and

    •   implement procedures to update clinical laboratory fee schedules on a regular basis to
        ensure that amounts paid for clinical laboratory services do not exceed amounts that
        Medicare pays for the same services.

The State agency agreed with our findings. Specifically, the State agency stated that it would
adjust its next quarterly report of expenditures as recommended and that it took action to update
its laboratory fee schedule annually by obtaining the relevant information from Medicare.

HOW WE CONDUCTED THIS REVIEW

We verified that the State agency implemented the recommendations from the prior report by (1)
confirming the State agency refunded $1.4 million to the Federal Government for Medicaid
overpayments identified in our prior audit and (2) reviewing Medicaid hospital outpatient and
independent clinical diagnostic laboratory services that were submitted by providers and claimed
by the State agency for Federal reimbursement on Form CMS-64, Quarterly Medicaid Statement
of Expenditures for the Medical Assistance Program. The State agency claimed $60,686,313
($34,284,881 Federal share) for Medicaid hospital outpatient and independent clinical laboratory
services provided during calendar years (CY) 2006 through 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.


1
 Review of Fee Schedules Used for Reimbursement of Clinical Laboratory Services – Connecticut Medicaid
Program (A-01-01-00003).

Connecticut Generally Implemented Recommendations From Prior Review of
Medicaid Payments for Clinical Laboratory Services (A-01-12-00014)                                       2
                                              FINDINGS

The State agency implemented the first recommendation from our prior audit. Specifically, the
State agency made an adjustment on its next quarterly report of expenditures for $2.8 million
($1.4 million Federal share). In general, the State agency implemented our prior audit’s second
recommendation to ensure that amounts claimed for laboratory services and submitted for
Federal reimbursement do not exceed the Medicare fee schedule amounts. However, for some
services (25,880 of the 6,333,931 services that we reviewed) the State agency paid providers
more than the payment amounts in the Medicare fee schedule. As a result, the Federal
reimbursement claimed by the State agency exceeded the rates allowed by Federal and State
requirements by $564,069 ($334,610 Federal share).

The Medicaid overpayments occurred because the State agency occasionally did not follow its
existing policies and procedures to ensure that the amounts claimed for hospital outpatient and
independent clinical laboratory services and submitted for Federal reimbursement did not exceed
the Medicare fee schedule amounts.

FEDERAL AND STATE REQUIREMENTS

No Federal financial participation would be available to any amounts expended for clinical
diagnostic laboratory tests that exceeded the amount that would be recognized under the
Medicare program (the Act § 1903(i)(7) and the CMS State Medicaid Manual § 6300).

The State agency reviews Medicare rate changes annually and any Medicaid fee that exceeds the
applicable Medicare fee is reduced to 95 percent of the Medicare fee or the Medicare floor,
whichever is higher (the Connecticut State Plan, Att. 4.19-B).

Clinical laboratory tests are reimbursed on the basis of the Medicare fee schedule published
annually by CMS (CMS’s Medicare Claims Processing Manual, chapter 16, § 20). For each
HCPCS code, Medicare pays the lesser of (1) actual charges, (2) the national limitation amount
on the CMS fee schedule, or (3) the CMS fee schedule amount for the State or local geographic
area.

MEDICAID PAYMENTS EXCEEDED AMOUNTS ALLOWED BY MEDICARE

The State agency generally claimed Federal Medicaid reimbursement for hospital outpatient and
independent clinical diagnostic laboratory services in accordance with Federal and State
requirements. Of the 6,333,931 services that we reviewed, the Medicaid payments made by the
State agency for 6,308,051 services did not exceed the Medicare fee schedule amounts.
However, for the remaining 25,880 services the State agency paid providers more than would
have been paid under the Medicare program. As a result, the Federal reimbursement claimed by
the State agency exceeded the rates allowed by Federal and State requirements by $564,069
($334,610 Federal share).

We determined whether the Medicaid payments for hospital outpatient and independent clinical
diagnostic laboratory services were made in accordance with Federal and State requirements by


Connecticut Generally Implemented Recommendations From Prior Review of
Medicaid Payments for Clinical Laboratory Services (A-01-12-00014)                                3
calculating the allowable and unallowable paid amounts for each individual service. For
example, during CY 2009 a provider billed $43 to the State agency for one unit of service for
HCPCS code 86901 (Blood typing; Rh (D)). The State agency paid $9.60 to the provider and
claimed the same amount for Federal Medicaid reimbursement. On the Medicare fee schedule
for 2009, both the national limit and the State limit for Connecticut was $4.35 per unit. Since the
National limit and the State limit were lower than the actual charge, we determined that the
allowable payment was $4.35 for one unit. As a result, we identified a Medicaid overpayment of
$5.25 for this claim ($9.60 minus $4.35). In total, we identified Medicaid payments that
exceeded the amounts allowed by Medicare for each CY as follows:

                                                          Services Exceeding Medicare
                           Claimed Services
        Calendar                                                  Fee Schedule
         Year        Number of                             Number of     Unallowable
                                      Paid Amount
                     Line Items                            Line Items      Amount
          2006         1,220,448          $9,626,027                 757        $16,805
          2007         1,057,097            8,458,553              4,214         51,435
          2008         1,139,419          11,587,372               5,732        128,767
          2009         1,097,555          11,515,973               6,590        152,861
          2010         1,819,412          19,498,388               8,587        214,201
        TOTAL          6,333,931         $60,686,313             25,880       $564,069

CAUSE OF MEDICAID OVERPAYMENTS

The Medicaid overpayments occurred because the State agency occasionally did not follow its
existing policies and procedures to ensure that the amounts claimed for hospital outpatient and
independent clinical laboratory services and submitted for Federal reimbursement did not exceed
the Medicare fee schedule payment amounts.

                                      RECOMMENDATIONS

We recommend that the State agency:

    •    refund $334,610 to the Federal Government and

    •    follow its existing policies and procedures to ensure that the amounts claimed for hospital
         outpatient and independent clinical laboratory services and submitted for Federal
         reimbursement do not exceed the Medicare fee schedule amounts.

                                 STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our findings. The State
agency’s comments are included in their entirety as Appendix B.



Connecticut Generally Implemented Recommendations From Prior Review of
Medicaid Payments for Clinical Laboratory Services (A-01-12-00014)                                 4
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed Medicaid hospital outpatient and independent clinical diagnostic laboratory
services that were submitted by providers and claimed by the State agency for Federal
reimbursement on Form CMS-64. The State agency claimed $60,686,313 ($34,284,881 Federal
share) for Medicaid hospital outpatient and independent clinical laboratory services provided
during CYs 2006 through 2010. 2

Our objective did not require an understanding or assessment of the complete internal control
structures at the State agency. Rather, we limited our review to those controls that were
significant to the objective of our audit.

We performed our fieldwork at the State agency in Hartford, Connecticut, from September 2012
through March 2013.

METHODOLOGY

To accomplish our audit objective, we:

    •   reviewed applicable Federal and State laws, regulations, and guidance and the CMS-
        approved State plan;

    •   reviewed our prior audit report on Connecticut clinical diagnostic laboratory services;

    •   interviewed officials from CMS, the Medicare carrier for Connecticut, and the State
        agency;

    •   verified that the State agency refunded $1.4 million to the Federal Government for
        Medicaid overpayments identified in our prior audit; and

    •   obtained a computer-generated file from the Connecticut Medicaid Management
        Information System containing all claims for Medicaid hospital outpatient and
        independent clinical laboratory services submitted by the State agency with HCPCS
        codes on the Medicare fee schedule and service dates during the period of January 1,
        2006, through December 31, 2010, to:

            o evaluate the file to identify 6,333,931 Medicaid hospital outpatient and
              independent clinical laboratory services totaling $60,686,313 ($34,284,881
              Federal share);




2
  We limited our review to HCPCS codes listed on the Medicare fee schedules for each CY. Our review did not
include HCPCS codes without CMS-established payment limits.

Connecticut Generally Implemented Recommendations From Prior Review of
Medicaid Payments for Clinical Laboratory Services (A-01-12-00014)                                            5
            o compute what the Medicare payment limit should be for each service by
              multiplying the Medicare fee schedule rate by the number of units billed, per
              HCPCS code;

            o calculate the difference between the Medicaid amount claimed (paid amount) and
              the Medicare payment limit for each service; and

            o total the differences to determine the amount that the State agency was
              reimbursed in excess of the Medicare fee schedule.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Connecticut Generally Implemented Recommendations From Prior Review of
Medicaid Payments for Clinical Laboratory Services (A-01-12-00014)                             6
                            APPENDIX B: STATE AGENCY COMMENTS


                            STATE OF CONNECTICUT                                       TELEPHONE
                                                                                       (860) 424-5053
                             DEPARTMENT OF SOCIAL SERVICES                             TDDnl'Y
                                                                                       1-800-842-4524

RODERICK L. BREMBY
                                 OFFICE OF THE COMMISSIONER                             FAX
                                                                                        (860) 424-5057
Commissioner
                                                                                        EMAIL
                                                                                        commis.dsslalct.gov
     April 22, 2013


     Michael J. Armstrong
     Regional Inspector General for Audit Services
     U.S. Department of Health and Human Services
     Government Center- Room 2425
     John F. Kennedy Building
     Boston, MA 02203

     Re: 	     OIG Audit performed on the Connecticut Department of Social Services
               Report Number A-01-12-00014

     Dear Mr. Armstrong:

     The State of Connecticut Department of Social Services has reviewed the draft report issued by
     the Department of Health and Human Services (DHHS) Office oflnspector General (OIG) Audit
     Number A-01-12-00014. The audit objective was to determine whether the State agency
     implemented the OIG prior recommendations (1) to refund $1.4 million in Medicaid
     overpayments and (2) to ensure that amounts claimed for clinical laboratory services and
     submitted for Federal reimbursement do not exceed the Medicare fee schedule amounts.
     Provided below is our written comments for each reeemmendation.

     OIG Recommendation:
     We recommend that the State agency refund $334,610 to the Federal Government.

     State of Connecticut Department of Social Services comments:
     The state concurs with the recommendation that the Federal reimbursement claimed by the State
     agency exceeded the rates allowed by Federal and State requirements. The state will recoup the
     overpayment from each specific medical provider noted in the OIG audit report and return the
     funds toCMS. The funds will be returned by reducing future expenditures claimed for Federal
     reimbursement on the Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
     Medical Assistance Program.

     OIG Recommendation:
     We recommend that the State agency follow its existing policies and procedures to ensure that
     the amounts claimed for hospital outpatient independent clinical laboratory services and
     submitted for federal reimbursement do not exceed the Medicare fee Schedule amounts.

                      25 SIGOURNEY STREET • HARTFORD, CONNECTICUT 06106-5033                             7
                                  An Equal Opportunity I Affirmative Action Employer
                                         Printed on Recycled or Recovered Paper
                                                  www.ct.gov/dss
Michael J. Armstrong
April 22, 2013
Page 2



State of Connecticut Department of Social Services comments:
The state concurs with the recommendation. The Department is working on a project that will
implement the OIG recommendation to eliminate the number of overpayments. It is estimated
that the change in claims processing will be implemented in the fall of 2013 or by the end of the
calendar year at the latest.

The State of Connecticut Department of Social Services appreciates the opportunity to provide
comments to the OIG audit findings. The department looks forward to improving the
effectiveness for ensuring that clinical laboratory services fees submitted for Federal
reimbursement do not exceed the Medicare fee schedule amounts.



Sincerely,
 l(aA'nWM. M. ~
 ~~· ~s;~
Rodeti:1£. Bremby
Commissioner

c: 	   Curtiss Roy, Audit Manager, DHHS , OIG
       John McCormick, Director of Quality Assurance, DSS
       Frank LaRosa, Director of Internal Audits, DSS
       Kathleen Brennan, Deputy Commissioner of Administration, DSS
       Kate McEvoy, Interim Director, Div. of Health Services, DSS




                                                                                                    8
